4

No.

THE SUPREME COURT OF THE UNITED STATES
HOLLY MACINTYRE
Petitioner,
v.

JP MORGAN CHASE BANK, N.A.,
Respondent.
On Petition for a Writ of Certiorari to
The United States Court of Appeals
For the Tenth Circuit

PROOF OF SERVICE

HOLLY MACINTYRE
Petitioner pro se
2991 Harrogate Way
Abingdon, MD 21009
410.967.4051
hollymac2@yahoo.com

I, Holly MacIntyre, Petitioner pro se, do hereby declare that on this date,
March 18, 2021, as required by Supreme Court Rule 29,1 have served the enclosed
PETITION FOR A WRIT OF CERTIORARI on each party’s counsel, and on every
other person required to be served, by electronic transmission to the following:
JP Morgan Chase Bank:
Mr. Ronald J. Tomassi, Jr.
Leon Cosgrove, LLP
999 18th St., #1925N
Denver, Colorado 80205
Telephone: (720) 617.7114
Facsimile: (305) 437.8158
at: rtomassi@leoncosgrove.com and anoonan@leoncosgrove.com

I declare under penalty of perjury that the foregoing is true and correct.
Executed on March 18, 2021.

